I

APPENDIX A:
Opinion Of The Eleventh Circuit

\

-16-

USCA11 Case: 17-13449

D@te1Rre*l: 12/23/2020

Page: 1 of 26

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-13449
Non-Argument Calendar
D.C. Docket No. l:15-cr-20632-RNS-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHRISTOPHER R. GLENN,
a.k.a. Fernando Albergue,
a.k.a. Derek John Michael,
a.k.a. Yusef,
a.k.a. El Gringo,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Florida
(December 23,2020)
Before WILLIAM PRYOR, Chief Judge, NEWSOM and BRANCH, Circuit
Judges.

h

USCA11 Case: 17-13449

qSte1R2B)l:12/23/2020

Page: 2 of 26

PER CURIAM:
This appeal requires us to review the convictions and sentence of a
government contractor who sexually exploited young, impoverished girls in
Honduras. A jury convicted Christopher Glenn of sexual assault of a minor, child
sex trafficking, travel with intent to engage in illicit sexual conduct, and possession
of child pornography. The district court sentenced him to life imprisonment. He
asks us to vacate his convictions on the grounds that the jury instructions
constructively amended his indictment, the prosecutor and the district court misled
the jury about the definition of a commercial sex act, the prosecutor misstated the
law during closing argument, and insufficient evidence supports his convictions.
He also asks us to vacate his sentence as substantively unreasonable. We conclude
that the jury instructions did not constructively amend the indictment, the
prosecutor and the district court did not mislead the juiy, the prosecutor’s closing
argument was proper, sufficient evidence supports the convictions, and the
sentence is reasonable. We affirm.
I. BACKGROUND
Christopher Glenn is an American citizen who was bom in the United States
and raised in upstate New York. He speaks English, Spanish, and Arabic. For
years, he worked overseas as a civilian contractor for the federal government. Most
of the crimes for which he was later convicted occurred while he worked in

USCA11 Case: 17-13449

Dptef3fiS)l: 12/23/2020

Page: 3 of 26

Honduras, first between December 2009 and December 2010, and again between
February 2012 and October 2012. He worked as a computer network administrator
for the United States Army, Southern Command, Joint Task Force Bravo, at Soto
Cano Air Base outside the city of Comayagua. Throughout this period, Glenn was
married, but his wife lived in the United States and she visited him only once in
Honduras in January 2010.
In February 2010, during his first work assignment in Honduras, Glenn
published advertisements for employment as a live-in housekeeper. The
advertisements targeted teenage girls. They promised a salary—4,000 lempiras, or
roughly $200, a month—and benefits, including medical insurance, meals, and
other expenses. Interested applicants were directed to contact a woman named
Lucia.
In response to one of these advertisements, a Honduran woman dropped off
her two daughters, 16-year-old Minor I and 13-year-old Minor D, at Lucia’s house
for a job interview. A third applicant, 14-year-old Minor K, was also present. Lucia
explained to die girls that they would work for a man named “Youssef’ and that
they would clean his house and prepare his meals. Lucia said that Youssef wanted
girls who were unmarried and without children. These requirements seemed
strange for a housekeeping job, but the girls needed the money. Eventually, Lucia

X\°\

USCA11 Case: 17-13449

DGslt©1RaB*l: 12/23/2020

Page: 4 of 26

called Youssef—in reality, Glenn—who came over to Lucia’s house and then
drove the girls to his home.
The girls stayed with Glenn for about 15 days. He told them that he was
from Iraq, and he required them to wear conservative clothing and headscarves and
to pray with him. While he was at work, the girls cleaned the house and watched
television. When he came home in the evening, they prepared his meals. They
could not go outside because he locked the gate behind him when he left for work.
And they could not contact the outside world because he did not leave them with a
telephone.
Minor I and Minor D remembered at least two strange incidents from their
time with Glenn. On one occasion, Glenn told the girls that he needed to perform a
“medical examination” for their employee health insurance. He sent each girl, one
at a time, into his bedroom. He told each to take off her clothes, then he fondled
her breasts and inserted a long cotton swab into her genitals. On another occasion,
Glenn gave the girls pills, which he said were vitamins. The girls ingested them
and felt dizzy. Minor I remembered Glenn taking her and the other girls upstairs,
but she had no memory of what happened afterward.
While Minor I was cleaning Glenn’s house one day, she discovered papers
containing the names of Minor D and Minor K. She confronted Glenn, who
admitted the documents were marriage contracts. He stated that he wanted to marry

A >0

USCA11 Case: 17-13449

D(fi©f2?^: 12/23/2020

Page: 5 of 26

Minor D or Minor K, and he asked for Minor I’s help in convincing her sister to
accept his proposal. Minor I refused because her sister was too young to marry.
About fifteen days after Glenn first brought the girls to his home, he said
that he had to go away on a trip, and he drove them back to their families. When he
reached Minor I and Minor D’s home, he spoke with their mother and offered her
money in exchange for allowing him to marry Minor D. The mother refused, so
Glenn left.
Sometime later, Glenn came back to Minor I and Minor D’s home. He was
accompanied by a 15-year-old girl, Minor F, whom he introduced as his new wife.
He asked Minor D to come back and work for him so that she could help Minor F
with the household chores. Minor D agreed because she needed the money. She
lived with Glenn for another 15 days, during which time, she says, he treated her
like an employee, unlike her first experience.
Minor F and her mother allege that Glenn paid their family a dowry of
30,000 lempiras, or about $1,500. According to Minor F, she had a small wedding
ceremony at Glenn’s house, conducted in Arabic and translated into Spanish. She
lived with Glenn between one and two months before she left him and returned
home because she was unhappy. Glenn later “divorced [her] in words.”
When Glenn returned to Honduras in 2012, he used a new strategy to recruit
a 15-year-old girl, Minor A, to marry him. In April 2012, Glenn and his neighbor,

USCA11 Case: 17-13449

D(fi©fF3re*i: 12/23/2020

Page: 6 of 26

Juan Angel Garda Velasquez, drove about five hours from Comayagua to the
municipality of Yorito. While Glenn waited in his car, Garcia Velasquez met with
Minor A’s parents and told them that he wanted to hire their daughter to care for
his sick mother at Lake Yojoa. He offered to pay the parents 2,000 lempiras a
month. Minor A’s parents accepted, and Minor A left with Garcia Velasquez and
Glenn that evening. But instead of driving to Lake Yojoa, as Garcia Velasquez had
told Minor A’s parents they would, they drove to Comayagua, where Garcia
Velasquez and Glenn lived. Garcia Velasquez introduced Minor A to Glenn and
said that he spoke only Arabic. Minor A spent her first night in Comayagua at
Garcia Velasquez’s house.
The next day, Glenn came over to Garcia Velasquez’s home at lunchtime.
Glenn and Garcia Velasquez called Minor A’s father and allowed her to speak with
him. Afterward, Garcia Velasquez told Minor A that her father had given his
permission for her to marry Glenn. But Minor A had overheard no such
conversation. Confused, she nevertheless followed Garcia Velasquez’s instructions
and changed into an outfit that he had bought for her. Garcia Velasquez then
performed a ceremony in Arabic. He asked Minor A to take Glenn’s hand and
repeat some words she did not understand. After the ceremony, Garcia Velasquez
gave her pills that he said were vitamins. Minor A took them and felt sleepy. After
Garcia Velasquez left her alone with Glenn, she again asked to speak to her father.

* aT

USCA11 Case: 17-13449

D(3t©1F2n6*i: 12/23/2020

Page: 7 of 26

Glenn responded in Spanish—the first time that he had spoken to Minor A in her
own language—that he did not have her father’s phone number. Soon thereafter,
Minor A fell asleep. She woke up the next morning alone, but she could tell that
she had lost her virginity while she slept.
After their “wedding night,” Glenn slept in the same bed as Minor A and
forced her to have sexual intercourse. She would sometimes say no, but she
stopped refusing after Glenn hit her. At first, he did not allow her to call her
parents, but when her mother called the police, he took her back home. During that
visit, he offered her parents 15,000 lempiras. They accepted, and in return they
allowed Glenn to keep their daughter. Minor A continued to live with Glenn for
about a year, after which she left him and returned home.
During their one-year “marriage,” Glenn asked Minor A to accompany him
and Garcia Velasquez on trips to recruit other girls. On one such trip, Minor A
helped to recruit Minor B, who was younger than her. Minor B’s experience was
nearly identical to Minor A’s. Garcia Velasquez allowed her to speak briefly with
her mother over the phone, then told her that her mother had consented to her
marrying Glenn. Garcia Velasquez and Glenn performed a “wedding” ceremony,
after which they gave Minor B some pills. But Minor B would not stop crying, so
Glenn and Garcia Velasquez took her back to her home after only two nights away.

>3^

USCA11 Case: 17-13449

DffteFSR)]: 12/23/2020

Page: 8 of 26

Minor A also accompanied Glenn and Garcia Velasquez on a trip to a
remote village to recruit Minor G, who was 15 years old. They brought food for a
family meal, and Minor A brought lotions and perfume to give to Minor G. Garcia
Velasquez told Minor G’s parents that he wanted their daughter to take care of his
sick mother, and he offered them 3,000 lempiras a month. When Minor G’s parents
said no, Garcia Velasquez increased the offer to 15,000 lempiras a month, but they
still turned him down. Later that evening, Minor G’s mother cooked dinner using
the food that Garcia Velasquez had brought them. Glenn, who had been waiting in
the car, joined them, but he did not speak throughout the meal. After dinner, Garcia
Vel&squez asked Minor G’s parents one last time to reconsider, and their answer
was still no. Someone then suggested that Minor G’s 14-year-old cousin, Minor H,
might be suitable for the job. Garcia Velasquez and Minor A went to see Minor H,
and Garcia Velasquez offered her 3,000 lempiras a month, but she also turned
down the job.
In addition to recruiting trips, Glenn sometimes took Minor A to stay at the
Intercontinental Hotel in Tegucigalpa. On May 5, 2012, he filmed a video of Minor
A in their hotel room where she appeared unfamiliar with and excited about indoor
plumbing and electricity. Glenn flew from Tegucigalpa to Miami on May 12, and
he flew back to Tegucigalpa on May 19. He and Minor A stayed at the
Intercontinental Hotel again from May 26 to May 28, during which time he

USCA11 Case: 17-13449

D(a©1F2l?)J: 12/23/2020

Page: 9 of 26

secretly filmed videos of Minor A sitting naked in the bathtub. Minor A says that
every time she and Glenn stayed at the hotel, they had sexual intercourse.
Glenn stopped working as a government contractor in October 2012, but he
remained in Honduras. A year later, the Federal Bureau of Investigation and the
Honduran national police began investigating him for possible involvement in
human trafficking. They surveilled his house and talked to his neighbors and
victims, including Minor A. They later executed a search warrant of his house in
Comayagua. Inside, they found two girls, including 16-year-old Minor J. They also
found sedative pills.
The Bureau searched Glenn’s computer hard drive and found numerous files
that corroborated the stories told by Glenn’s victims, including videos of Minor A,
draft marriage contracts, and fake medical questionnaires. It also found child
pornography, including photographs from 2004 depicting a girl, Minor C, engaged
in sexual acts with Glenn. The Bureau tracked down Minor C, who was from
Mexico, and discovered that she was 16 years old at the time the photos were
taken.
A federal grand jury indicted Glenn for one count of sexual assault of a
minor, 18 U.S.C. § 2243(a); two counts of sex trafficking by fraud or of a minor,
id. § 1591(a)(1), along with four counts of attempted sex trafficking, id.
§§ 1591(a)(1), 1594(a), and two counts of conspiracy to engage in sex trafficking,

USCA11 Case: 17-13449

D(dlfc fifiE?!) 12/23/2020

Page: 10 of 26

id. §§ 1591(a)(1), 1594(c); one count of travel with intent to engage in illicit sexual
conduct, id. § 2423(b); and one count of possession of child pornography, id.
§ 2252(a)(4)(A). As charged in the indictment, federal law made it a crime to
recruit, entice, harbor, or transport a person “knowing, or in reckless disregard of
the fact, that... fraud... will be used to cause the person to engage in a
commercial sex act, or that the person has not attained the age of 18 years and will
be caused to engage in a commercial sex act.” Id. § 1591(a)(1) (2012). A
“commercial sex act” is defined as “any sex act, on account of which anything of
value is given to or received by any person.” Id. § 1591(e)(3). The United States
Attorney later dismissed one of the counts of attempted sex trafficking, leaving a
ten-count indictment against Glenn.
The district court conducted a 24-day jury trial. Glenn represented himself
throughout most of his trial, with the assistance of stand-by counsel. The jury heard
testimony from Minor D, Minor I, Minor F and her mother, Minor A, Minor G,
and Minor H. After the government rested, Glenn moved for a judgment of
acquittal on four of the counts, which the district court denied. Glenn renewed his
motion at the close of evidence. The district court denied it except as to the two
charges of attempted sex trafficking involving Minor G and Minor H, which it
reserved until after the jury verdict.

K° Zb

USCA11 Case: 17-13449

D(dtfe m\Z&) 12/23/2020

Page: 11 of 26

During the conference on jury instructions, Glenn asked the district court to
provide the jury with a “marriage defense” to the charges of sex trafficking: “If
you find that Christopher Glenn was either married, by common law or a religious
marriage, or engaged in consensual sex with an individual 16 years of age or older,
then you must find him not guilty of commercial sex acts.” He also asked the
district court to include, in parentheses, the word “prostitution” next to the term
“commercial sex act.” The district court denied both requests. It instructed the jury
that a commercial sex act “means any sex act, on account of which anything of
value is given to or received by any person.”
The district court also instructed the jury that for it to find Glenn guilty of
sex trafficking by fraud or of a minor the government had to prove beyond a
reasonable doubt that he “knew, or was in reckless disregard of the fact, that either
(a) means of fraud would be used... or (b) the person had not attained the age of
18 years.” The district court explained that “[i]f the Government proves beyond a
reasonable doubt that [Glenn] had a reasonable opportunity to observe the [victim],
then the Government does not have to prove that [Glenn] knew that the person had
not attained the age of 18 years.” Glenn did not object to this instruction.
During her closing argument, the prosecutor explained to the jury that Glenn
did not have to be involved in prostitution for him to be guilty of causing minors to
commit commercial sex acts. She said that “sex trafficking does not need to

USCA11 Case: 17-13449

U$Xk mm) 12/23/2020

Page: 12 of 26

involve prostitution. It may. In this case, it does not.” And she went on to explain
that “a commercial sex act does not have to be prostitution. And this case in fact is
not about prostitution.”
The prosecutor also addressed the charge that Glenn traveled from the
United States to Honduras on May 19,2012, with the intent to engage in illicit
sexual conduct with Minor A. 18 U.S.C. § 2423(b). She told the jury that “if you
are traveling from the United States to another country, even if you’re residing
over there, but... one of your purposes is to sexually exploit or engage in sex
trafficking, you can be charged with [violating section 2423(b)].” Glenn did not
contemporaneously object to that statement.
The jury found Glenn guilty of eight of the ten counts: sexual assault of
Minor D; sex trafficking of Minor A; attempted sex trafficking of Minor D, Minor
G, and Minor H; conspiracy to engage in sex trafficking between March 2012 and
February 2014; travel to engage in illicit sexual conduct; and possession of child
pornography. It found him not guilty of sex trafficking of Minor F and of
conspiracy to commit sex trafficking between February 2010 and June 2010. The
district court then denied Glenn’s motion for a judgment of acquittal as to the two
counts of attempted sex trafficking that it had not previously ruled upon.
Glenn’s base offense levels under the Sentencing Guidelines ranged from 18
to 34. He received two-level enhancements because his victims were in his

USCA11 Case: 17-13449

D(d» <5fil2?!) 12/23/2020

Page: 13 of 26

custody, care, or supervisory control; he knowingly misrepresented his identity; he
obstructed justice; he knowingly engaged in the distribution of child pornography;
some of his victims were at least 12 but younger than 16 years old; and his child
pornography offense involved a computer and 30 images. He also received fourlevel enhancements because he was the organizer of criminal activity that involved
five or more participants and his offenses involved aggravated sexual abuse. 18
U.S.C. § 2241(a)-(b). He received a five-level enhancement because he had
engaged in a pattern of behavior involving the sexual abuse or exploitation of a
minor. Finally, he received a four-level adjustment for multiple counts and another
five-level enhancement because he engaged in a pattern of activity involving
prohibited conduct. His total offense level was 55, which the guidelines treat as the
maximum offense level of 43. Glenn’s guideline-sentencing range was life
imprisonment.
The district court sentenced Glenn to life imprisonment for each count of sex
trafficking, attempted sex trafficking, and conspiracy to commit sex trafficking,
along with concurrent sentences of 180 months for sexual assault, 360 months for
travel with the purpose of engaging in illicit sexual conduct, and 120 months for
possessing child pornography. It explained that it had determined an appropriate
sentence by considering “the statements of the parties, the presentence
investigation report[,]... the advisory guidelines, [and] the statutory factors.” See

i)

USCA11 Case: 17-13449

D(dtfe

12/23/2020

Page: 14 of 26

18 U.S.C. § 3553(a). It began with the fact that Glenn had committed “very serious
offenses involving the sexual abuse of minors,” many of them while he was a guest
in Honduras working on behalf of the federal government. It reasoned that when
foreign governments “allow our military and their civilian support staff to come
into their countries to work,... they have to know that if one of those people preys
upon their citizens, then our country is going to take strong actions against our own
citizens.” So the sentence needed to deter “other people who are thinking of
engaging in these kind[s] of activities.” The district court also explained that it had
to consider “the protection of the public.” Glenn’s victims were poor young girls,
some of whom “did not even know how to spell their own names.” The district
court described the video of Glenn showing Minor A how indoor plumbing works
as “haunting.” Moreover, Glenn had “not shown any remorse,” he had “no concept
of how horrible [his] actions were and how wrong they were,” and he “continually
blame[d] everyone and everything but [himself] for all the harms” that he caused.
The district court believed that even if Glenn were released from prison in about 50
years at the age of 85, he would still be a danger to society.
II. STANDARD OF REVIEW
We review unpreserved issues for plain error. United States v. Flanders, 752
F.3d 1317,1332-33 (11th Cir. 2014); United States v. Madden, 733 F.3d 1314,
1322 (11th Cir. 2013). We review the refusal to give a requested jury instruction

A

USCA11 Case: 17-13449

D(d® <Hil21]) 12/23/2020

Page: 15 of 26

for abuse of discretion. United States v. Rutgerson, 822 F.3d 1223,1236 (11th Cir.
2016). We review the sufficiency of evidence de novo and view the evidence in the
light most favorable to the government. United States v. Garcia, 405 F.3d 1260,
1269 (11th Cir. 2005). We review the reasonableness of a sentence for abuse of
discretion. United States v. Williams, 526 F.3d 1312,1321 (11th Cir. 2008).
in. DISCUSSION
Glenn argues that the jury instructions constructively amended his
indictment; that the district court and the prosecutor improperly conflated a
“commercial sex act” with prostitution; that the prosecutor misstated the law with
respect to the travel-with-intent charge during her closing argument; that three of
his convictions were not supported by sufficient evidence; and that his sentence of
life imprisonment is unreasonable. We address each issue in turn. We do not
address his argument that the statutes of conviction are unconstitutional as applied
because he raised this issue in a perfunctory manner and without any citations to
legal authority. See Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678,681 (11th
Cir. 2014).
A. The Jury Instructions Did Not Constructively Amend the Indictment.
The Fifth Amendment provides, “No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a presentment or indictment of a
Grand Jury....” U.S. Const, amend. V. “A fundamental principle stemming from

USCA11 Case: 17-13449

D(dft fflifeB) 12/23/2020

Page: 16 of 26

this amendment is that a defendant can only be convicted for a crime charged in
the indictment.... When a defendant is convicted of charges not included in the
indictment, an amendment of the indictment has occurred.” United States v. Keller,
916 F.2d 628,633 (11th Cir. 1990). An amendment of the indictment happens
“when the essential elements of the offense contained in the indictment are altered
to broaden the possible bases for conviction beyond what is contained in the
indictment.” Id. at 634. It is “per se reversible error.” Id. at 633.
Glenn argues that the district court constructively amended his indictment
because it told the jury that the government did not have to prove that Glenn “in
fact knew that the [victim] had not attained the age of 18 years” if she proved
beyond a reasonable doubt that he “had a reasonable opportunity to observe the
[victim].” According to Glenn, this instruction added an independent basis of
liability for section 1591 because it meant that the prosecutor satisfied her burden
if she proved one of three facts: that Glenn knew that his victim was under 18; that
he acted with reckless disregard to that fact; or that he had a reasonable
opportunity to observe his victim. Because the indictment discussed only the first
two options—knowledge or reckless disregard—Glenn argues that the district
court constructively amended the indictment by adding reasonable opportunity to
observe as an alternative means of obtaining a conviction.

USCA11 Case: 17-13449

U&k fflilftB) 12/23/2020

Page: 17 of 26

The district court did not constructively amend Glenn’s indictment because
the jury instructions accurately stated die law when Glenn committed his offenses.
Section 1591(a)(1) defines the following offense: “Whoever knowingly...
recruits, entices, harbors,... or maintains by any means a person ... knowing, or
in reckless disregard ofthe fact, that... fraud... will be used... or that the
person has not attained the age of 18 years ... shall be punished....” 18 U.S.C.
§ 1591(a)(1) (2012) (emphasis added). So the government had to prove Glenn’s
mens rea by presenting evidence that either he knew that fraud would be used or
that the victim was a minor, or that he recklessly disregarded these facts. See
United States v. Whyte, 928 F.3d 1317,1328 (11th Cir. 2019). When Glenn was
indicted, subsection (c) provided, “In a prosecution under subsection (a)(1) in
which the defendant had a reasonable opportunity to observe the [victim], the
Government need not prove that die defendant knew that the person had not
attained the age of 18 years.” Id. § 1591(c) (effective language Dec. 23,2008, to
May 28,2015). In dicta in United States v. Mozie, we stated that section 1591(c)
means that if the government proves beyond a reasonable doubt “that the defendant
had a reasonable opportunity to observe the victim, it need prove only that he
recklessly disregarded the fact that she was under the age of eighteen, not that the
defendant knew she was.” 752 F.3d 1271,1282 (11th Cir. 2014). We later
explained that “we read [this] version of subsection (c) as governing when the

X tn?

USCA11 Case: 17-13449

D(dfc <Bfil2i!l) 12/23/2020

Page: 18 of 26

government may proceed under a theory of reckless disregard instead of actual
knowledge.” Whyte, 928 F.3d at 1329. Glenn’s jury instructions conformed to this
interpretation.
Glenn argues that our precedent forecloses this interpretation, but the
decision he cites involved an amended version of section 1591(c). In United States
v. Whyte, we held that “section 1591(c) unambiguously creates an independent
basis of liability when the government proves a defendant had a reasonable
opportunity to observe the victim.” Id. at 1330. But the version of section 1591(c)
that we reviewed in Whyte included an amendment by Congress in 2015. See
Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22, § 108(a)(3)(B),
129 Stat. 227,239 (codified at 18 U.S.C. § 1591(c)). The amended version
provides, “In a prosecution under subsection (a)(1) in which the defendant had a
reasonable opportunity to observe the (victim], the Government need not prove
that the defendant knew, or recklessly disregarded the fact, that the person had not
attained the age of 18 years.” 18 U.S.C. § 1591(c) (effective language since May
29,2015) (emphasis added). We acknowledged in Whyte that the amendment of
section 1591(c) superseded our interpretation of that provision in Mozie. Whyte,
928 F.3d at 1330. Because Glenn was indicted under the previous version of
section 1591(c), Whyte is irrelevant to our analysis.

*1 >Y

USCA11 Case: 17-13449 D(dft <RilB?l) 12/23/2020

Page: 19 of 26

The other opinions cited by Glenn do not support his argument. They
involved jury instructions that made a reasonable opportunity to observe the victim
an independent basis of liability, which constructively amended the indictments.
United States v. Roberts, 770 F. App’x 563, 566-67 (11th Cir. 2019); United States
v. Davis, 854 F.3d 601,604 (9th Cir. 2017). Those decisions do not help Glenn
because the jury instructions in his trial did not identify a reasonable opportunity to
observe the victim as an independent basis of liability.
B. The Term “Commercial Sex Act” Is Broader than Prostitution.
Glenn asserts that “[t]he jury was deliberately misled to believe that [he]
could commit commercial sex acts without engaging in prostitution.” He appears
to allege both prosecutorial misconduct and improper jury instructions. He
contends that the prosecutor confused the jury by leading it to believe that
“commercial sex acts” are distinguishable from prostitution. And he argues that the
district court erred by refusing to instruct the jury that a commercial sex act is
equivalent to prostitution.
These arguments fail because the statutory definition of “commercial sex
act” covers more conduct than just prostitution. Section 1591(e)(3) defines a
commercial sex act as “any sex act, on account of which anything of value is given
to or received by any person.” 18 U.S.C. § 1591(e)(3). Glenn offered money to his
victims and their families so that he could engage in sexual acts with them. His

*

USCA11 Case: 17-13449

D[3& (Bfii2ll) 12/23/2020

Page: 20 of 26

conduct is prohibited by the plain terms of the statute, which do not require the
victim to be a prostitute.
Glenn unpersuasively argues that the statutes of conviction do not apply to
his conduct because they “were intended to criminalize and target child
prostitution.” Even if his assertion about the purpose of the statutes were true, we
are bound by the text of those laws, not by any unstated intents. See Antonin Scalia
& Bryan A. Gamer, Reading Law: The Interpretation ofLegal Texts § 2, at 57
(2012) (“[P]uipose—even purpose as most narrowly defined—cannot be used to
contradict text or to supplement it.”). Moreover, we have previously upheld
convictions under section 1591(a)(1) for conduct other than prostitution. See, e.g.,
Flanders, 752 F.3d at 1330-31 (upholding a conviction under section 1591(a)(1)
against a defendant who “used fraud both to recruit and entice [his] victims to
travel to Miami and to drug the victims in order to cause them to engage in filmed
sex acts” that were then “distributed commercially over the Internet”).
Because they are based on an erroneous interpretation of the law, Glenn’s
arguments about prosecutorial misconduct and improper jury instructions fail. The
prosecutor did not commit any misconduct by explaining to the jury that Glenn
could be convicted for causing a minor to engage in a commercial sex act without
being involved in prostitution. And the district court did not err by refusing to give
a jury instruction that conflated a commercial sex act with prostitution.

USCA11 Case: 17-13449

D(£tfe <5iil2<!l) 12/23/2020

Page: 21 of 26

C. The Prosecutor Did Not Misstate the Law During Closing Argument.
Glenn asserts that the prosecutor misstated the law with respect to the charge
that he traveled with the intent to engage in illicit sexual conduct. 18 U.S.C.
§ 2423(b). The prosecutor told the jury that a person violates section 2423(b) even
if he resides in the country to which he is traveling for illicit sex. Glenn argues that
section 2423(b) did not apply to him because he lived in Honduras. He cites United
States v. Pepe, 895 F.3d 679,682 (9th Cir. 2018), where the Ninth Circuit vacated
a conviction under section 2423(c) because a factual dispute existed as to whether
the defendant had relocated to Cambodia and ceased traveling in interstate
commerce when he committed his offense.
Contrary to Glenn’s assertions, a conviction for violating section 2423(b)
does not depend on whether a defendant resided in the foreign country to which he
traveled for illicit sex. At the time of Glenn’s offense, section 2423(b) provided,
“[A] United States citizen... who travels in foreign eommerce[] for the purpose of
engaging in any illicit sexual conduct with another person shall be [punished].” 18
U.S.C. § 2423(b) (effective language Apr. 30,2003, to Dec. 20,2018). Under a
plain reading of this provision, a crime “is complete as soon as one begins to travel
with the intent to engage in” illicit sexual conduct. United States v. Pendleton, 658
F.3d 299,304 (3d Cir. 2011). Nothing in the text of section 2423(b) suggests that

^ 3^

USCA11 Case: 17-13449

D(<2fc mt&B) 12/23/2020

Page: 22 of 26

the provision is limited to United States citizens who are temporarily visiting a
foreign country without residing there.
Glenn’s reliance on Pepe is misplaced because it addressed a different
subsection of the statute. Section 2423(c) makes it a crime for a United States
citizen “who travels in foreign commerce” to “engage[] in any illicit sexual
conduct with another person.” 18 U.S.C. § 2423(c) (effective language Apr. 30,
2003 to Mar. 6,2013). Unlike a crime under section 2423(b), which is complete as
soon as a person travels with the intent to engage in illicit sexual conduct, a crime
under section 2423(c) “is not complete until a person engages in illicit sex.”
Pendleton, 658 F.3d at 304. So if, at the time a person engages in illicit sex, he has
ceased traveling in foreign commerce because he plans to reside in a foreign
country, then his conduct does not fall within the terms of section 2423(c). Pepe,
895 F.3d at 691. But that limitation does not apply to section 2423(b), the
provision under which Glenn was convicted. The prosecutor did not misstate the
law about section 2423(b).
D. Sufficient Evidence Supports Glenn’s Convictions.
Glenn argues that insufficient evidence supports his convictions for travel
with intent to engage in illicit sexual conduct, 18 U.S.C. § 2423(b), and attempted
sex trafficking of Minor G and Minor H, id. §§ 1591(a)(1), 1594(a). Although we
review the sufficiency of evidence de novo, we “view[] the evidence in the light

2\

USCA11 Case: 17-13449

D(<2» <Ril2U) 12/23/2020

Page: 23 of 26

most favorable to the government,” and we make “[a]ll reasonable inferences and
credibility choices ... in favor of the government and the jury’s verdict.” Garcia,
405 F.3d at 1269. “We must affirm [Glenn’s] convictions unless, under no
reasonable construction of the evidence, could the jury have found [him] guilty
beyond a reasonable doubt.” Id.
Sufficient evidence supports Glenn’s conviction for traveling from the
United States to Honduras on May 19,2012, with the intent of engaging in illicit
sexual conduct with Minor A. 18 U.S.C. § 2423(b). The prosecutor provided
evidence that Glenn flew from Miami to Tegucigalpa on May 19,2012, and that he
stayed at die Intercontinental Hotel from May 26 to May 28,2012. Minor A
testified that she had sexual intercourse with Glenn every time they stayed at the
Intercontinental Hotel.
Glenn does not dispute this evidence. Instead, he argues that the evidence
does not establish “that sex with Minor A was even a small part of [his]
motivation” for returning to Honduras. But Glenn testified on his own behalf that
he believed that Minor A was his legitimate wife. And he defended himself against
the travel-with-intent charge by saying that Minor A “is not a prostitute” and “[i]t’s
not commercial sex.”
The jury could have reasonably found that returning home to his “wife,”
Minor A, with whom he planned to continue having sex, was one of Glenn’s

USCA11 Case: 17-13449

D(«2fc mm) 12/23/2020

Page: 24 of 26

reasons for returning to Honduras. It could have also reasonably discredited
Glenn’s testimony that Minor A was his legitimate wife. And it could have
reasonably found that he engaged in illegal sex with her.
Sufficient evidence also supports Glenn’s convictions for attempted sex
trafficking of Minor G and Minor H. Minor A testified that she accompanied
Glenn and Garcia Velasquez on a trip where they attempted to recruit both girls.
Minor G and Minor H also testified about the attempted recruitment, and Minor G
identified Glenn to the jury and said that he ate dinner with her and her family.
Glenn drove from Comayagua to Minor G’s home, brought food to Minor G’s
family, and ate dinner prepared by Minor G’s mother while Garcia Velasquez tried
to persuade her to accept a fake job opportunity. Nevertheless, he argues that the
evidence does not show that he took a “substantial step” to recruit Minor G and
Minor H; if any attempt was made, it was by Garcia Velasquez and Minor A while
Glenn waited in the car. But the jury reasonably credited Minor A’s testimony that
Glenn was more than just a passive observer in the attempt to recruit Minor G and
Minor H using the same tactics that had been used on her. Based on this testimony,
it reasonably found Glenn guilty of attempted sex trafficking.
E. Glenn’s Life Sentence is Reasonable.
Glenn argues that his sentence of life imprisonment for his sex-trafficking
convictions is substantively unreasonable. He contends that his offenses do not

USCA11 Case: 17-13449

D(fiS ffliETi) 12/23/2020

Page: 25 of 26

warrant a sentence of life imprisonment because he did not use “force or violence.”
We disagree.
The district court imposed a reasonable sentence. In addition to the
Sentencing Guidelines, the district court considered the statutory factors, including
the nature and seriousness of the offenses, the characteristics of the defendant, the
need to deter criminal conduct, and the need to protect the public. 18 U.S.C.
§ 3553(a)(1), (a)(2)(A)-(C). It described Glenn’s crimes as “very serious” because
they “involv[ed] the sexual abuse of minors.” These minors were particularly
vulnerable to being deceived because they grew up in poverty and lacked both
formal education and experience with modem technology. That Glenn committed
many of his crimes while working on behalf of the federal government in a foreign
country added to the seriousness of his offenses. The district court explained that
Glenn’s sentence had to deter these crimes and had to reassure the world that the
United States took these crimes seriously. Finally, Glenn’s lack of remorse for his
crimes left the district court convinced that he would continue to pose a danger to
the public if he were ever released from prison. Based on these considerations, the
district court did not abuse its discretion by imposing a sentence of life
imprisonment.
Glenn unpersuasively argues that the district court should have varied from
the Sentencing Guidelines because his convictions did not involve “force or

^5L(\

USCA11 Case: 17-13449

<Hil2Il) 12/23/2020

Page: 26 of 26

violence.” Our precedent suggests the opposite. “Child sex crimes are among the
most egregious and despicable of societal and criminal offenses, and courts have
upheld lengthy sentences in these cases as substantively reasonable.” United States
v. Surras, 575 F.3d 1191,1220 (11th Cir. 2009); see id. at 1196,1221 (upholding
as reasonable a 100-year sentence for a defendant who persuaded his minor
stepdaughter to engage in illicit sexual conduct and who knowingly possessed
child pornography); United States v. Johnson, 451 F.3d 1239,1240-41,1244 (11th
Cir. 2006) (upholding as reasonable a 140-year sentence for producing and
distributing child pornography of three boys between the ages of 8 and 16). The
district court did not abuse its discretion by imposing a within-guidelines sentence
of life imprisonment.
IV. CONCLUSION
We AFFIRM Glenn’s convictions and sentence.

APPENDIX B:
Opinion Of The Southern District Of Florida

USCA11 Case: 17-13449

Date Filed: 01/22/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-13449-SS

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
CHRISTOPHER R. GLENN
a.k.a. Fernando Albergue,
a.k.a. Derek John Michael,
a.k.a. Yusef,
a.k.a. El Gringo,
Defendant - Appellant.

Appeal from the United States District Court
for the Southern District of Florida
BEFORE: WILLIAM PRYOR, Chief Judge, NEWSOM and BRANCH, Circuit Judges
PER CURIAM:
The Petition for Panel Rehearing filed by Appellant is DENIED.

ORD-41

\<

APPENDIX C :
Constitutional And Statutory Provisions

r H-U

AMENDMENT 6
Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence.

US CONST

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

04919104

